        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Travis County Health & Human
Services and Veterans Services −
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-18                        April 2013
                                 Department of Energy
                                    Washington, DC 20585
                                         April 18, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Travis County Health &
                         Human Services and Veterans Services – Weatherization Assistance
                         Program Funds Provided by the American Recovery and Reinvestment
                         Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Travis County Health & Human
Services and Veterans Services (Travis County) Weatherization Assistance Program
(Weatherization Program) provided by the American Recovery and Reinvestment Act of 2009
(Recovery Act). The Office of Inspector General (OIG) contracted with an independent certified
public accounting firm, Lani Eko & Company, CPAs, PLLC (Lani Eko), to express an opinion
on Travis County's compliance with Federal and State laws, regulations and program guidelines
applicable to the Weatherization Program. Travis County is a sub-recipient of the Department of
Energy's (Department) Recovery Act Weatherization Program funding for the State of Texas.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Texas received $327 million in
Weatherization Program Recovery Act grant funding, of which $8.9 million was allocated to
Travis County to weatherize approximately 1,060 homes. The State of Texas' Department of
Housing and Community Affairs (State) was responsible for administering Weatherization
Program grants, including funds provided to Travis County.

OBSERVATIONS AND CONCLUSIONS

Lani Eko expressed the opinion that, except for the weaknesses described in its report, Travis
County complied in all material respects with the requirements and guidelines relative to the
Weatherization Program for the period of April 1, 2009 through June 30, 2011.
                                                2

However, the examination found that Travis County had not:

      •   Ensured that homes it weatherized were eligible for those services. Specifically,
          Travis County did not have procedures in place to ensure compliance with Federal
          requirements that prohibit use of Federal funds to weatherize dwelling units
          designated for acquisition or clearance by a Federal, state or local program within 12
          months from the date weatherization of the dwelling units would be completed.

      •   Properly supported 33 of 45 client transactions reviewed. Lani Eko found that
          signatures that denoted authorization and/or approval of weatherization services were
          missing. Two additional client files were missing key documentation such as invoices
          or final inspection reports.

The report makes recommendations to Travis County to improve the administration of its
Weatherization Program. Travis County provided responses that expressed agreement with the
recommendation regarding eligibility and provided planned actions to address the issues
identified. Travis County disagreed that the cost documentation did not denote proper approvals,
but acknowledged that while the cost documents were not in the file at the time of the audit, the
original documents were maintained in the Finance Department available for review. Lani Eko
acknowledged receipt of cost documents signed by the appropriate approving officials
subsequent to the examination and credited Travis County for this action.

RECOMMENDATION

We recommend the Assistant Secretary for Energy Efficiency and Renewable Energy ensure
appropriate action is taken by the State of Texas to improve administration of Recovery Act
Weatherization Program funds at Travis County Health & Human Services and Veterans
Services.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation outlined in the report. The Department's
Weatherization Assistance Program Project Officer participates in weekly calls with the State of
Texas, and receives weekly production reports for all subgrantees. The Department noted the
State had enhanced its monitoring review to ensure that subgrantee files contain appropriate
documentation. Based on an earlier review performed by the Department, the Project Officer
recommended to the State that Travis County develop a corrective action plan and that all
reimbursement costs are reviewed. The Project Officer will verify the State's monitoring
approach and that all corrective actions were implemented during an on-site visit scheduled for
August 2013. The Department's comments are included in their entirety in Attachment 2.

The State concurred with the Travis County recommendations and will continue to work with
Travis County to mitigate the risk that Federal funds are expended on ineligible units. Further,
the State will review documentation to ensure it is properly approved. The State noted, however,
that due to separation of duties, approved documentation is retained in the Finance Office, which
                                                3

is separate from the Housing Office at Travis County. The State found it troubling that the
auditor did not include a visit to the Finance Office to review the documentation. The State's
comments are included in their entirety in Attachment 3.

The comments provided by the Department and the State were responsive to the
recommendations. Regarding the State's concern about lack of auditor review of available
documentation, we noted that although Travis County indicated in its written comments to the
draft examination report that the documentation had been available for Lani Eko's review.
During the examination, Travis County did not inform Lani Eko that the documentation existed
and was maintained separately in the Finance Office.

EXAMINATION-LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of Travis County's
policies and procedures, and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.

The Office of Inspector General monitored the progress of the examination and reviewed the
report and related documentation. Our review disclosed no instances in which Lani Eko did not
comply, in all material respects with the attestation requirements. Lani Eko is responsible for the
attached report dated August 25, 2011, and the conclusions expressed in the report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                                 Attachment 1




EXAMINATION REPORT OF
TRAVIS COUNTY HEALTH &
HUMAN SERVICES AND
VETERANS SERVICES -
WEATHERIZATION
ASSISTANCE PROGRAM
FUNDS PROVIDED BY THE
AMERICAN RECOVERY AND
REINVESTMENT ACT OF 2009




Lani Eko & Company, CPAs, PLLC
                                                                                          Attachment 1 (continued)




                                            TABLE OF CONTENTS



INDEPENDENT ACCOUNTANT’S REPORT .............................................................1


DESCRIPTION OF TRAVIS COUNTY HHS/VS WEATHERIZATION
ASSISTANCE PROGRAM ..............................................................................................2


CLASSIFICATION OF FINDINGS ................................................................................3


SUMMARY OF FINDINGS .............................................................................................4


SCHEDULE OF FINDINGS ............................................................................................5


MANAGEMENT RESPONSE .........................................................................................9
                                                                       Attachment 1 (continued)




Independent Accountant's Report

To the Inspector General, U.S. Department of Energy:

We have examined the American Recovery and Reinvestment Act of 2009 (Recovery Act),
Weatherization Assistance Program (Weatherization Program) funds awarded by the State of
Texas to the Travis County Health & Human Services and Veterans Services (Travis County) for
the period April 1, 2009 through June 30, 2011. Travis County is responsible for operating the
Weatherization Program in compliance with applicable Federal and state laws, regulations and
program guidelines. Our responsibility is to express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability
Office; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant Weatherization Program Federal and state laws, regulations, and
program guidelines, and performing such other procedures, as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and not be detected. In addition, projections of
any evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section IV of this report, Travis County
complied, in all material respects, with the aforementioned requirements and guidelines relative
to Weatherization Program funds awarded to Travis County for the period April 1, 2009 through
June 30, 2011.




August 25, 2011
Alexandria, Virginia




                                                                                         1
                                                                        Attachment 1 (continued)

    SECTION I. Description of Travis County Health & Human Services and Veterans
                    Services Weatherization Assistance Program


The U.S. Department of Energy awarded $326,975,732 to the State of Texas to allocate among
its network of 44 local governments and nonprofit organizations participating in the
Weatherization Assistance Program (Weatherization Program). From this award, $8,922,699
was allocated to Travis County Health & Human Services and Veterans Services (Travis
County) to assist with the costs of weatherizing approximately 1,060 homes. The Texas
Department of Housing and Community Affairs (Texas) administers the Weatherization
Program.

Travis County collaborates with Texas to operate the Weatherization Program. In accordance
with the terms of this agreement, Travis County is responsible for determining applicant
eligibility and taking the necessary steps to weatherize the applicant's home. These steps include
procurement of contractor services as well as conducting home assessments and inspections.

The Weatherization Program helps eligible low-income households lower their energy costs by
increasing energy efficiency. Energy conservation and efficiency methods utilized by the
Weatherization Program include measures that reduce energy consumption and the cost of
maintenance for weatherized homes. In addition to the material improvements, energy
conservation education is provided to participants. For the period from April 1, 2009 through
June 30, 2011, Travis County reported that it had completed weatherization of 876 units under
the Weatherization Program.




                                                                                          2
                                                                        Attachment 1 (continued)

                            SECTION II. Classification of Findings


The findings in this report are classified as follows:


Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
adversely affects Travis County's ability to initiate, authorize, record, process, or report data
reliably in accordance with the applicable criteria or framework such that there is more than a
remote likelihood that a misstatement of the subject matter that is more than inconsequential will
not be prevented or detected.


Advisory Comment

An advisory comment represents a control deficiency that is not significant enough to adversely
affect Travis County's ability to record, process, summarize, and report data reliably. The
advisory comment presented represents matter that came to our attention during the course of the
review, and is offered to Travis County's management as an opportunity for improvement. The
advisory comment is provided along with suggestions and discussion of the significance of the
comments.




                                                                                          3
                                                                  Attachment 1 (continued)

                        SECTION III. Summary of Findings


1. Eligibility for Weatherization Services Under the Recovery Act − Significant Deficiency

2. Weatherization Cost Support and Approval – Advisory Comment




                                                                                   4
                                                                         Attachment 1 (continued)

                               SECTION IV. Schedule of Findings


Finding 1. Eligibility for Weatherization Services Under the Recovery Act – Significant
Deficiency

Condition

Travis County had not ensured that homes it weatherized were eligible for those services.
Specifically, Travis County did not have procedures in place to ensure compliance with Federal
requirements that prohibit use of Federal funds to weatherize dwelling units designated for
acquisition or clearance by a Federal, state or local program within 12 months from the date
weatherization of the dwelling units would be completed. A dwelling unit is considered
"designated for acquisition or clearance" if it becomes subject to imminent domain or foreclosure
proceedings. The Texas Weatherization Field Guide and the Texas Weatherization Grant
Agreement, consistent with the Federal requirements, define an eligible applicant for the
Weatherization Program as an applicant whose unit was not designated for acquisition or
clearance by a Federal, state, or local program within 12 months from the date of weatherization.
Section 5 of the Texas Grant Agreement states,"…Department is not liable for any cost incurred
by Sub-recipient which is incurred to weatherize a dwelling unit which is designated for
acquisition or clearance by a federal, state, or local program within twelve months from the date
weatherization of the dwelling unit is scheduled to be completed."

Cause

Travis County personnel tasked with the administration of the Weatherization Program were not
aware of the Federal and state requirements that prohibit use of Federal funds to weatherize
dwelling units designated for acquisition or clearance by a Federal, state or local program within
12 months from the date weatherization of the dwelling units would be completed.

Effect

There is an increased risk that Travis County may have improperly provided weatherization
services to ineligible applicants and dwelling units, thereby, reducing the amount of Recovery
Act funds available for eligible applicants and dwelling units.

Recommendation

We recommend that Travis County:

1.1      Include in its application procedures specific inquiries to determine whether the
         homeowner is aware of any potential Federal, state or local program's designation of their
         home for acquisition or clearance.



                                                                                           5
                                                                         Attachment 1 (continued)

                          SECTION IV. Schedule of Findings (Cont.)


Management Response

Travis County concurs with the recommandation, and will include the following in its
application procedures effective February 1, 2013:

"The landlord, home owner, or property owner certifies that, to the best of their knowledge, the
dwelling unit to be weatherized is not designated for acquisition or clearance by a Federal, State,
or local program within 12 months from the date of completion of weatherization of the dwelling
unit."

Auditor Response

Management's comments and actions taken are responsive to our finding.




                                                                                           6
                                                                         Attachment 1 (continued)

                          SECTION IV. Schedule of Findings (Cont.)


Finding 2. Weatherization Cost Support and Approval – Advisory Comment

Condition

In our review of documents supporting weatherization cost transactions, we found numerous
instances in which cost approvals were not consistently documented. Supporting documentation
is required to demonstrate that the Recovery Act costs are allowable, authorized and approved.
In accordance with Federal guidelines, Travis County's weatherization agreement requires
Recovery Act supporting documentation be signed and dated by authorized approving officials.
We noted, in 33 client files out of the 45 we reviewed, signatures that denoted authorization
and/or approval of weatherization services were missing. Two additional client files were
missing key documentation such as invoices or final inspection reports.

Cause

Travis County attributed documentation deficiencies to its de-centralized operations, and added
that the client files we reviewed may not have contained the final version of procurement
documents that reflected all levels of approval. Travis County officials stated the agency's
financial system could not process the procurement documents without purchase order number
generated by the Finance Division, thus the approval was tacitly obtained.

Subsequent to our identification of deficient cost support, Travis County provided
documentation, which contained previously omitted signatures of Housing Services staff and
Program Manager, the Finance Manager (or designee) and the County Executive. Additionally,
Travis County's Procurement Division requires the Labor Standards Officer (LSO) to certify
weatherization invoices for appropriateness, completeness and Davis-Bacon Act compliance
prior to submission to the County Auditor for payment processing. The LSO's signature is
evidence of the weatherization vendor's compliance with contract requirements.

Effect

As a result of the lack of proper documentation and approvals, the risk that errors and
irregularities could occur and not be detected in a timely manner is increased.

Recommendation

We recommend that Travis County:

2.1   Review weatherization cost support in detail to ensure that documentation meets the
      procurement guidelines of the Weatherization Program, and are properly approved by
      authorized officials.


                                                                                          7
                                                                      Attachment 1 (continued)

                         SECTION IV. Schedule of Findings (Cont.)


Management Response

Travis County did not concur with the finding; however, it acknowledged that the cost support
documents were not in the files at the time of the audit. Travis County stated that the Finance
Department maintains the final original copy of these documents, which were available for
review during the examination. Finally, authorized Travis County officials approved and signed
all required procurement documents. Documentation submitted to and received by the
independent accountant supports these statements.

Auditor Response

We acknowledge receipt of cost documents signed by the appropriate approving officials
subsequent to our examination and have credited Travis County for this action.




                                                                                         8
                             Attachment 1 (continued)


SECTION V. Management Response




                                             9
                                  Attachment 1 (continued)


SECTION V. Management Response (Cont.)




                                                  10
                                     Attachment 1 (continued)



SECTION V. Management Response (Cont.)




                                                     11
                      Attachment 2

DEPARTMENT COMMENTS




       Page 12
          Attachment 2 (continued)




Page 12
                          Attachment 3

STATE OF TEXAS COMMENTS




         Page 13
          Attachment 3 (continued)




Page 14
                                                                 IG Report No. OAS-RA-13-18


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                                 Date

Telephone                                            Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
